         Pension Benefit Guaranty Corporation
                  Office of Inspector General
                              Audit Report




   Audit of the Pension Benefit Guaranty Corporation’s
     Fiscal Year 2006 and 2005 Financial Statements
                            Independent Auditor’s Report

                  Independent Auditor’s Report on Internal Control

           Report of Independent Auditors on Compliance and Other Matters



______________________________________________________________________________


                     Pension Benefit Guaranty Corporation’s
                 Fiscal Year 2006 and 2005 Financial Statements

_______________________________________________________________________




                           November 15, 2006
                                                                     2007-1/FA-0024-1
                    Pension Benefit Guaranty Corporation
                                                  Office of Inspector General
                                   1200 K Street, N.W., Washington, D.C. 20005-4026




To the Board of Directors
Pension Benefit Guaranty Corporation

We contracted with Clifton Gunderson LLP, an independent certified public accounting
firm, to audit the financial statements of the Single-Employer and Multiemployer Program
Funds administered by the Pension Benefit Guaranty Corporation (PBGC) as of and for the
years ended September 30, 2006 and 2005. The audits were performed in accordance with
auditing standards generally accepted in the United States of America, Government Auditing
Standards issued by the Comptroller General of the United States, OMB’s Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements, and the GAO/PCIE
Financial Audit Manual.

In its audits of PBGC’s Single-Employer and Multiemployer Program Funds, Clifton
Gunderson found:

   •   The financial statements were presented fairly, in all material respects, in
       conformity with accounting principles generally accepted in the United States of
       America;

   •   PBGC’s assertion about internal control over financial reporting (including
       safeguarding assets) and compliance with laws and regulations, as of
       September 30, 2006, is fairly stated in all material respects. However, four
       reportable conditions were repeated from Fiscal Year 2005 regarding the lack of
       integrated financial management systems, improvements needed in PBGC’s
       information security program, weaknesses related to single-employer premiums,
       and PBGC’s need to strengthen its preparedness for unanticipated incidences and
       disruptions;

   •   No instances of noncompliance with tested laws and regulations.

Clifton Gunderson is responsible for the accompanying auditor’s report dated
November 9, 2006, and the conclusions expressed in the report. We do not express
opinions on PBGC’s financial statements or internal control, nor do we draw conclusions on
compliance with laws and regulations.

Clifton Gunderson’s reports (2007-1/FA-0024-1) are also available on our website at
http://oig.pbgc.gov.

Sincerely,




Robert L. Emmons
Inspector General

November 9, 2006
               Audit of the Pension Benefit Guaranty Corporation’s
                 Fiscal Year 2006 and 2005 Financial Statements
                          Audit Report 2007-1/FA-0024-1

                                          Contents


Section I:      Independent Auditor’s Report


Section II:     Pension Benefit Guaranty Corporation’s Fiscal Year
                2006 and 2005 Financial Statements


Section III:    Independent Auditor’s Report on Internal Control


Section IV:     Independent Auditor’s Report on Compliance
                and Other Matters


Section V:      Agency Comments


                                       Abbreviations


BIA            Business impact analysis
C&A            Certification and accreditation
CFS            Consolidated Financial System
CIO            Chief Information Officer
COOP           Continuity of Operations Plan
CTO            Chief Technology Officer
FASD           Facilities and Services Department
FISMA          Federal Information Security Management Act of 2002
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FOD            Financial Operations Department
FRS            Financial Reporting System
FY             Fiscal Year
IPVFB          Integrated Present Value of Future Benefits
ISSO           Information Systems Security Officer
NIST           National Institute of Standards and Technology
OFFM           Office of Federal Financial Management
OIG            Office of Inspector General
OIT            Office of Information Technology
OMB            Office of Management and Budget
PA             Performance Accounting
PAS            Premium Accounting System
PBGC           Pension Benefit Guaranty Corporation
PCIE           President’s Council on Integrity and Efficiency
PDFN           Past Due Filing Notices
PPS            Premium Payment System
SOA            Statement of Account
TAS            Trust Accounting System
U.S.C.         United States Code
         Section I

Independent Auditor’s Report
                                                                              t

a1
                                   Independent Auditor’s Report


To the Inspector General of the
Pension Benefit Guaranty Corporation


We have audited the accompanying statements of financial condition of the Single-Employer and
Multiemployer Program Funds administered by the Pension Benefit Guaranty Corporation
(PBGC) as of September 30, 2006 and 2005, and the related statements of operations and
changes in net position and cash flows for the years then ended. These financial statements are
the responsibility of PBGC’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Single-Employer and Multiemployer Program Funds administered
by PBGC as of September 30, 2006 and 2005, and the results of their operations and their cash
flows for the years then ended in conformity with accounting principles generally accepted in the
United States of America.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining.
As of September 30, 2006, PBGC reported in its financial statements net deficit positions
(liabilities in excess of assets) in the Single-Employer and Multiemployer Program Funds of
$18,142 million and $739 million, respectively. As discussed in Note 7 to the financial




Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                  Offices in 15 states and Washington, DC         h
statements, losses as of September 30, 2006 for the Single-Employer and Multiemployer
Programs that are reasonably possible as a result of unfunded vested benefits are estimated to be
$73,000 million and $83 million, respectively. The PBGC’s net deficit, and long-term viability,
could be further impacted by losses from plans classified as reasonably possible (or from other
plans not yet identified as potential losses) as a result of deteriorating economic conditions, the
insolvency of a large plan sponsor or other factors. PBGC has been able to meet their short-term
benefit obligations. However, as discussed in Note 1 to the financial statements, management
believes that neither program at present has the resources to fully satisfy PBGC’s long-term
obligations to plan participants.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 9, 2006 on our consideration of PBGC’s internal control over financial reporting and
on our tests of its compliance with certain provisions of laws and regulations and other matters.
Those reports are an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.


A1
Calverton, Maryland
November 9, 2006
              Section II

Pension Benefit Guaranty Corporation’s
      Fiscal Year 2006 and 2005
         Financial Statements
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION

                                                                              Single-Employer             Multiemployer              Memorandum
                                                                              Program                        Program                     Total
                                                                            September 30,                  September 30,              September 30,
(Dollars in millions)                                                    2006          2005             2006          2005        2006           2005


ASSETS
Cash and cash equivalents                                              $ 8,490          $ 8,889     $     5         $     13    $ 8,495       $ 8,902


Investments, at market (Note 3):
  Fixed maturity securities                                             35,503          33,160       1,159              1,134   36,662         34,294
  Equity securities                                                     13,730          12,284            0                0    13,730         12,284
  Real estate and real estate investment trusts                                4            29            0                0         4             29
  Other                                                                        1            25            0                0          1            25
  Total investments                                                     49,238          45,498       1,159              1,134   50,397         46,632

Receivables, net:
  Sponsors of terminated plans                                               130           146            0                0       130            146
  Premiums (Note 9)                                                          374           425            1                0       375            425
  Sale of securities                                                     1,440           1,124            0                0      1,440         1,124
  Investment income                                                          259           359            1               13       260            372
  Other                                                                        3                2         0                0         3              2
  Total receivables                                                      2,206           2,056            2               13     2,208          2,069


Capitalized assets, net                                                       38            27            0                0        38             27


Total assets                                                          $59,972          $56,470      $1,166           $1,160     $61,138       $57,630

The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                      Single-Employer                     Multiemployer             Memorandum
                                                                         Program                        Program                          Total
                                                                       September 30,                  September 30,                  September 30,
(Dollars in millions)                                              2006            2005            2006          2005           2006              2005

LIABILITIES
Present value of future benefits, net (Note 4):
  Trusteed plans                                              $ 63,949          $ 57,291      $      2             $      2    $ 63,951       $ 57,293

  Plans pending termination and trusteeship                        277             1,918             0                    0        277          1,918

  Settlements and judgments                                         55                   58          0                    0         55             58

  Claims for probable terminations                               4,862            10,470             0                    0      4,862         10,470

  Total present value of future benefits, net                   69,143            69,737             2                    2     69,145         69,739

Present value of nonrecoverable future
 financial assistance (Note 5)                                                                1,876                    1,485     1,876          1,485

Payable upon return of securities loaned                         6,491             6,939             0                    0      6,491          6,939

Unearned premiums                                                  298                  210         27                    8        325            218

Due for purchases of securities                                  2,089             2,290             0                    0      2,089          2,290

Accounts payable and accrued expenses (Note 6)                      93                   70          0                    0         93             70

Total liabilities                                               78,114            79,246      1,905                    1,495    80,019         80,741


Net position                                                    (18,142)         (22,776)         (739)                (335)   (18,881)       (23,111)

Total liabilities and net position                            $ 59,972          $ 56,470      $1,166               $1,160      $ 61,138       $ 57,630

The accompanying notes are an integral part of these financial statements.



Commitments and contingencies are discussed in the following:
  Notes 7, 8, 14, and 15.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                                 Single-Employer                Multiemployer                   Memorandum
                                                                     Program                      Program                          Total

                                                                For the Years Ended          For the Years Ended            For the Years Ended

                                                                   September 30,                September 30,                  September 30,
(Dollars in millions)                                           2006           2005          2006           2005            2006           2005
UNDERWRITING
Income:
  Premium (Note 9)                                              $ 1,442      $ 1,451     $     58           $ 26        $     1,500     $ 1,477
  Other                                                              79             44          0                  0            79            44
  Total                                                           1,521         1,495          58                 26          1,579        1,521
Expenses:
 Administrative                                                    352             311          0                  0           352           311
  Other                                                               2             77          0                  0              2           77
  Total                                                            354             388          0                  0           354           388
Other underwriting activity:
 Losses (credits) from completed and
  probable terminations (Note 10)                                (6,155)        3,954           0                  0        (6,155)        3,954
  Losses from financial assistance (Note 5)                                                   461               204            461           204
  Actuarial adjustments (Note 4)                                  (424)            220          0                  0          (424)          220
  Total                                                         (6,579)         4,174         461               204          (6,118)       4,378
Underwriting gain (loss)                                          7,746        (3,067)       (403)              (178)        7,343        (3,245)


FINANCIAL:
Investment income (Note 11):
  Fixed                                                            394          1,755          (1)                79           393         1,834
  Equity                                                          1,793         2,114           0                  0          1,793        2,114
  Other                                                              (3)            28          0                  0            (3)           28
  Total                                                           2,184         3,897          (1)                79          2,183        3,976
Expenses:
 Investment                                                          53             31          0                  0            53            31
  Actuarial charges (Note 4):
   Due to passage of time                                         3,206         2,618           0                  0         3,206         2,618
   Due to change in interest rates                                2,037        (2,348)          0                  0         2,037        (2,348)
  Total                                                          5,296             301          0                  0         5,296           301
Financial income (loss)                                          (3,112)        3,596          (1)                79         (3,113)       3,675
Net income (loss)                                                 4,634            529       (404)              (99)         4,230           430


Net position, beginning of year                                (22,776)       (23,305)       (335)              (236)       (23,111)     (23,541)
Net position, end of year                                     $(18,142)      $(22,776)   $(739)             $(335)      $(18,881)       $(23,111)


The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                    Single-Employer                 Multiemployer                 Memorandum
                                                                        Program                    Program                            Total
                                                                  For the Years Ended        For the Years Ended               For the Years Ended
                                                                      September 30,              September 30,                    September 30,
(Dollars in millions)                                             2006           2005         2006         2005                2006            2005
OPERATING ACTIVITIES:
 Premium receipts                                          $    1,579        $      1,595    $      76     $     26     $     1,655        $     1,621
 Interest and dividends received, net                           1,689               1,344           44           64           1,733              1,408
 Cash received from plans upon trusteeship                         75                218              0           0              75               218
 Receipts from sponsors/non-sponsors                              884                139              0           0             884               139
 Receipts from the missing participant program                      7                   8             0           0               7                  8
 Other receipts                                                     9                137              0           0               9                137
 Benefit payments - trusteed plans                              (4,006)            (3,301)            0           (1)        (4,006)            (3,302)
 Financial assistance payments                                                                     (70)         (14)            (70)               (14)
 Settlements and judgments                                          (3)                (5)            0           0              (3)                (5)
 Payments for administrative and other expenses                  (373)               (324)            0           0           (373)               (324)
Net cash provided (used) by operating activities
  (Note 13)                                                       (139)              (189)           50          75             (89)              (114)


INVESTING ACTIVITIES:
 Proceeds from sales of investments                            90,261            131,442          2,119        5,114         92,380            136,556
 Payments for purchases of investments                         (90,073)          (136,357)       (2,177)    (5,190)         (92,250)          (141,547)
 Change in security lending collateral                           (448)              6,301             0           0           (448)              6,301
Net cash provided (used) by investing activities                 (260)              1,386          (58)         (76)           (318)             1,310


Net increase (decrease) in cash and cash equivalents             (399)              1,197            (8)         (1)          (407)              1,196
Cash and cash equivalents, beginning of year                     8,889              7,692            13          14           8,902              7,706
Cash and cash equivalents, end of year                    $      8,490       $      8,889    $        5    $     13     $     8,495       $      8,902


The accompanying notes are an integral part of these financial statements.
NOTES TO FINANCIAL STATEMENTS
SEPTEMBER 30, 2006 AND 2005


Note 1 -- Organization and Purpose
        The Pension Benefit Guaranty Corporation (the PBGC or the Corporation) is a federal
corporation created by Title IV of the Employee Retirement Income Security Act of 1974 (ERISA) and
is subject to the provisions of the Government Corporation Control Act. Its activities are defined in
ERISA as amended by the Multiemployer Pension Plan Amendments Act of 1980, the Single-Employer
Pension Plan Amendments Act of 1986, the Pension Protection Act of 1987, the Retirement Protection
Act of 1994, the Consolidated Appropriations Act, 2001, the Deficit Reduction Act of 2005, and the
Pension Protection Act of 2006. The Corporation insures the pension benefits, within statutory limits,
of participants in covered single-employer and multiemployer defined benefit pension plans.
        ERISA requires that the PBGC programs be self-financing. The Corporation’s principal
operational resources are premiums collected from covered plans, assets assumed from terminated
plans, collection of employer liability payments due under ERISA, and investment income. ERISA
provides that the U.S. Government is not liable for any obligation or liability incurred by the PBGC.
         As of September 30, 2006, the single-employer and multiemployer programs reported deficits of
$18.142 billion and $739 million, respectively. The single-employer program had assets of nearly $60.0
billion which is offset by total liabilities of $78.1 billion, which includes a total present value of future
benefits (PVFB) of approximately $69.1 billion. As of September 30, 2006, the multiemployer program
had assets of approximately $1.2 billion offset by approximately $1.9 billion in present value of
nonrecoverable future financial assistance.
        Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations for
a number of years; however, neither program at present has the resources to fully satisfy the PBGC’s
long-term obligations to plan participants.


Single-Employer and Multiemployer Program Exposure
        Measures of risk in the PBGC’s insured base of plan sponsors suggest that the single-employer
deficit may begin to abate in the short term. The PBGC’s best estimate of the total underfunding in
plans sponsored by companies with credit ratings below investment grade, and classified by the PBGC
as reasonably possible of termination as of September 30, 2006, was $73 billion. The comparable
estimates of reasonably possible exposure for 2005 and 2004 were $108 billion and $96 billion,
respectively. These estimates are measured as of December 31 of the previous year (see Note 7). For
2006, this exposure is concentrated in the following sectors: manufacturing; transportation,
communication and utilities; services/other; and wholesale and retail trade.
        The PBGC estimates that the total underfunding in single-employer plans was approximately
$350 billion (unaudited), as of September 30, 2006, and exceeded $450 billion (unaudited), as of
September 30, 2005. The PBGC’s exposure to loss is less than these amounts because of the statutory
limits on insured pensions. For single-employer plans sponsored by employers that do not file with the
PBGC under section 4010 of ERISA, the PBGC’s estimates are based on data obtained from other
filings and submissions with the government and from corporate annual reports for fiscal years ended in
calendar 2005.
        Total underfunding of multiemployer plans is estimated to exceed $150 billion (unaudited) at
September 30, 2006. In 2005, the PBGC estimated that multiemployer underfunding exceeded $200
billion (unaudited). Multiemployer plan data is much less current and complete than single-employer
data--it is generally two years older and in some cases three years older than single-employer data and
comes only from Form 5500 filings.
        The PBGC estimates that, as of September 30, 2006, it is reasonably possible that multiemployer
plans may require future financial assistance in the amount of $83 million. As of September 30, 2005
and 2004, this exposure was estimated at $418 million and $108 million, respectively.
        There is significant volatility in plan underfunding and sponsor credit quality over time, which
makes long-term estimates of the PBGC’s expected claims difficult. This volatility, and the
concentration of claims in a relatively small number of terminated plans, have characterized the PBGC’s
experience to date and will likely continue. Among the factors that will influence the PBGC’s claims
going forward are economic conditions affecting interest rates, financial markets, and the rate of
business failures.
        Under the single-employer program, the PBGC is liable for the payment of guaranteed benefits
with respect only to underfunded terminated plans. An underfunded plan may terminate only if the
PBGC or a bankruptcy court finds that one of the four conditions for a distress termination, as defined
in ERISA, is met or if the PBGC involuntarily terminates a plan under one of five specified statutory
tests. The net liability assumed by the PBGC is generally equal to the present value of the future
benefits payable by the PBGC less amounts provided by the plan’s assets and amounts recoverable by
the PBGC from the plan sponsor and members of the plan sponsor’s controlled group, as defined by
ERISA.
        Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance
from the PBGC to allow the plan to continue to pay participants their guaranteed benefits. The PBGC
recognizes assistance as a loss to the extent that the plan is not expected to be able to repay these
amounts from future plan contributions, employer withdrawal liability or investment earnings.

Note 2 -- Significant Accounting Policies
        Basis of Presentation: The accompanying financial statements have been prepared in
accordance with accounting principles generally accepted in the United States of America (GAAP). The
preparation of the financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and liabilities at the date of the financial statements and the reported amounts of
revenues and expenses during the reporting period. Estimates and assumptions may change over time
as new information is obtained or subsequent developments occur. Actual results could differ from
those estimates.
        Valuation Method: A primary objective of the PBGC’s financial statements is to provide
information that is useful in assessing the PBGC’s present and future ability to ensure that its plan
beneficiaries receive benefits when due. Accordingly, the PBGC values its financial assets at estimated
fair value, consistent with the standards for pension plans contained in Statement of Financial
Accounting Standards (FAS) No. 35 (“Accounting and Reporting by Defined Benefit Pension Plans”).
The PBGC values its liabilities for the present value of future benefits and present value of
nonrecoverable future financial assistance using assumptions derived from annuity prices from
insurance companies, as described in the Statement of Actuarial Opinion. As described in Paragraph 21
of FAS No. 35, the assumptions are “those assumptions that are inherent in the estimated cost at the
(valuation) date to obtain a contract with an insurance company to provide participants with their
accumulated plan benefits.” Also, in accordance with Paragraph 21 of FAS No. 35, the PBGC selects
assumptions for expected retirement ages and the cost of administrative expenses in accordance with its
best estimate of anticipated experience.


        Revolving and Trust Funds: The PBGC accounts for its single-employer and multiemployer
programs’ revolving and trust funds on an accrual basis. Each fund is charged its portion of the benefits
paid each year. The PBGC presents totals that include both the revolving and trust funds for
presentation purposes in the financial statements; however, the single-employer and multiemployer
programs are separate programs by law and, therefore, the PBGC also reports them separately.
        ERISA provides for the establishment of the revolving funds where premiums are collected and
held. The assets in the revolving funds are used to cover deficits incurred by plans trusteed and
provides funds for financial assistance. The Pension Protection Act of 1987 created a single-employer
revolving (7th) fund that is credited with all premiums in excess of $8.50 per participant, including all
penalties and interest charged on these amounts, and its share of earnings from investments. This fund
may not be used to pay the PBGC’s administrative costs or the benefits of any plan terminated prior to
October 1, 1988, unless no other amounts are available.
        The trust funds include assets (e.g., pension plan investments) the PBGC assumes (or expects to
assume) once a terminated plan has been trusteed, and related investment income. These assets
generally are held by custodian banks. The trust funds support the operational functions of the PBGC.
        The trust funds reflect accounting activity associated with: (1) trusteed plans -- plans for which
the PBGC has legal responsibility–the assets and liabilities are reflected separately on the PBGC’s
balance sheet, the income and expenses are included in the income statement and the cash flows from
these plans are included in the cash flow statement, and (2) plans pending termination and trusteeship --
plans for which the PBGC has begun the process for termination and trusteeship by fiscal year-end --
the assets and liabilities for these plans are reported as a net amount on the liability side of the balance
sheet under "Present value of future benefits, net." For these plans, the income and expenses are
included in the income statement, but the cash flows are not included in the cash flow statement, and
(3) probable terminations -- plans that the PBGC determines are likely to terminate and be trusteed by
the PBGC--the assets and liabilities for these plans are reported as a net amount on the liability side of
the balance sheet under "Present value of future benefits, net." The accrued loss from these plans is
included in the income statement as part of "Losses from completed and probable terminations." The
cash flows from these plans are not included in the cash flow statement. The PBGC cannot exercise
legal control over a plan’s assets until it becomes trustee.
        Allocation of Revolving and Trust Funds: The PBGC allocates assets, liabilities, income and
expenses to each program’s revolving and trust funds to the extent that such amounts are not directly
attributable to a specific fund. Revolving fund investment income is allocated on the basis of each
program’s average cash and investments available during the year while the expenses are allocated on the
basis of each program’s present value of future benefits. Revolving fund assets and liabilities are
allocated on the basis of the year-end equity of each program’s revolving funds. Plan assets acquired by
the PBGC and commingled at the PBGC’s custodian bank are credited directly to the appropriate fund
while the earnings and expenses on the commingled assets are allocated to each program’s trust funds
on the basis of each trust fund’s value, relative to the total value of the commingled fund.
        Cash and Cash Equivalents: Cash includes cash on hand and demand deposits as well as cash
collateral retained as security for securities lent. Cash equivalents are securities with a maturity of one
business day.
        Investment Valuation and Income: The PBGC bases market values on the last sale of a listed
security, on the mean of the “bid-and-ask” for nonlisted securities or on a valuation model in the case of
fixed income securities that are not actively traded. These valuations are determined as of the end of
each fiscal year. Purchases and sales of securities are recorded on the trade date. In addition, the PBGC
invests in and discloses its derivative investments in accordance with the guidance contained in FAS No.
133 (“Accounting for Derivative Instruments and Hedging Activities”), as amended. Investment
income is accrued as earned. Dividend income is recorded on the ex-dividend date. Realized gains and
losses on sales of investments are calculated using first-in, first-out for the revolving fund and average
cost for the trust fund. The PBGC marks the plan’s assets to market and any increase or decrease in the
market value of a plan’s assets occurring after the date on which the plan is terminated must, by law, be
credited to or suffered by the PBGC.
        Sponsors of Terminated Plans, Receivables: The amounts due from sponsors of terminated
plans or members of their controlled group represent the settled, but uncollected, claims for employer
liability (underfunding as of date of plan termination) and for contributions due their plan less an
allowance for estimated uncollectible amounts. The PBGC discounts any amounts expected to be
received beyond one year for time and risk factors. Some agreements between the PBGC and plan
sponsors provide for contingent payments based on future profits of the sponsors. The Corporation will
report any such future amounts in the period they are realizable. Income and expenses related to
amounts due from sponsors are reported in the underwriting section of the Statements of Operations
and Changes in Net Position. Interest earned on settled claims for employer liability and due and unpaid
employer contributions (DUEC) is reported as “Income: Other.” The change in the allowances for
uncollectible employer liability and DUEC is reported as “Expenses: Other.”
        Premiums: Premiums receivable represent the estimated earned but unpaid portion of the
premiums for plans that have a plan year commencing before the end of the PBGC’s fiscal year and past
due premiums deemed collectible, including penalties and interest. The liability for unearned premiums
represents an estimate of payments received during the fiscal year that cover the portion of a plan’s year
after the PBGC’s fiscal year-end. Premium income represents actual and estimated revenue generated
from self-assessments from defined benefit pension plans as required by Title IV of ERISA
(see Note 9).
        Capitalized Assets: Capitalized assets include furniture and fixtures, electronic processing
equipment and internal-use software. This includes costs for internally developed software incurred
during the application development stage (system design including software configuration and software
interface, coding, testing including parallel processing phase). These costs are shown net of depreciation
and amortization.
        Present Value of Future Benefits (PVFB): The PVFB is the estimated liability for future
pension benefits that the PBGC is or will be obligated to pay the participants of trusteed plans and the
net liability for plans pending termination and trusteeship. The PVFB liability (including trusteed plans
as well as plans pending termination and trusteeship) is stated as the actuarial present value of estimated
future benefits less the present value of estimated recoveries from sponsors and members of their
controlled group and the assets of plans pending termination and trusteeship as of the date of the
financial statements. The PBGC also includes the estimated liabilities attributable to plans classified as
probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan assets).
The PBGC uses assumptions to adjust the value of those future payments to reflect the time value of
money (by discounting) and the probability of payment (by means of decrements, such as for death or
retirement). The PBGC also includes anticipated expenses to settle the benefit obligation in the
determination of the PVFB. The PBGC’s benefit payments to participants reduces the PVFB liability.
       The values of the PVFB are particularly sensitive to changes in underlying estimates and
assumptions. These estimates and assumptions could change and the impact of these changes may be
material to the PBGC’s financial statements (see Note 4).
       (1)   Trusteed Plans--represents the present value of future benefit payments less the present
             value of expected recoveries (for which a settlement agreement has not been reached with
             sponsors and members of their controlled group) for plans that have terminated and been
             trusteed by the PBGC prior to fiscal year-end. Assets are shown separately from liabilities
             for trusteed plans.
       (2)   Pending Termination and Trusteeship--represents the present value of future benefit
             payments less the plans’ net assets (at fair value) anticipated to be received and the present
             value of expected recoveries (for which a settlement agreement has not been reached with
             sponsors and members of their controlled group) for plans for which termination action
             has been initiated and/or completed prior to fiscal year-end. Unlike trusteed plans, the
             liability for plans pending termination and trusteeship is shown net of plan assets.
       (3)   Settlements and Judgments--represents estimated liabilities related to settled litigation.
       (4)   Net Claims for Probable Terminations--In accordance with Statement of Financial
             Accounting Standards No. 5 (Accounting for Contingencies) the PBGC recognizes net
             claims for probable terminations which represent the PBGC’s best estimate of the losses,
             net of plan assets and the present value of expected recoveries (from sponsors and
             member controlled group) for plans that are likely to terminate within twelve months of
             the financial statement issuance date. These estimated losses are based on conditions that
             existed as of the PBGC’s fiscal year-end. Management believes it is likely that one or
             more events subsequent to the PBGC’s fiscal year-end will occur, confirming the loss.
             Criteria used for classifying a specific plan as a probable termination include, but are not
             limited to, one or more of the following conditions: the plan sponsor is in liquidation or
             comparable state insolvency proceeding with no known solvent controlled group
      member; sponsor has filed or intends to file for distress plan termination; or the PBGC
      seeks involuntary plan termination. In addition, management takes into account other
      economic events and factors in making judgments regarding the classification of a plan as
      a probable termination. These events and factors may include, but are not limited to: the
      plan sponsor is in bankruptcy or has indicated that a bankruptcy filing is imminent; the
      plan sponsor has stated that plan termination is likely; the plan sponsor has received a
      going concern opinion from its independent auditors; or the plan sponsor is in default
      under existing credit agreement(s).
      In addition, a reserve for large unidentified probable losses is recorded based on actual
      PBGC experience, as well as the historical industry bond default rates. This reserve has
      been developed by segregating plan sponsors listed on the contingency list, with plan
      funding ratios less than or equal to 80%, with aggregate underfunding equal to or greater
      than $50 million into risk bands that reflect their level of credit risk. A reserve for small
      unidentified probable losses and incurred but not reported (IBNR) claims is also recorded
      based on an actuarial loss development methodology (triangulation method) (see Note 4).
(5)   The PBGC identifies certain plans as high risk if the plan sponsor is in Chapter 11
      proceedings or sponsor's unsecured debt is rated CCC+/Caa1 or lower by S&P or
      Moody’s respectively. The PBGC specifically reviews each plan identified as high risk
      and classifies those plans as probable if, based on available evidence, the PBGC
      concludes that plan termination is likely. Otherwise, high risk plans are classified as
      reasonably possible.
(6)   In accordance with Statement of Financial Accounting Standards No. 5 (Accounting for
      Contingencies), the PBGC’s exposure to losses from plans of companies that are
      classified as reasonably possible is disclosed in footnotes. In order for a plan sponsor to
      be specifically classified as reasonably possible, it must first have $5 million or more of
      underfunding, as well as meet additional criteria. Criteria used for classifying a company
      as reasonably possible include, but are not limited to, one or more of the following
      conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver pending or
      outstanding with the Internal Revenue Service (IRS); sponsor missed minimum funding
                contribution; sponsor’s bond rating is below-investment-grade for Standard & Poor’s
                (BB+) or Moody’s (Ba1); sponsor has no bond rating but unsecured debt is below
                investment grade; or sponsor has no bond rating but the ratio of long-term debt plus
                unfunded benefit liability to market value of shares is 1.5 or greater (see Note 7).
        Present Value of Nonrecoverable Future Financial Assistance: In accordance with Title
IV of ERISA, the PBGC provides financial assistance to multiemployer plans, in the form of loans, to
enable the plans to pay guaranteed benefits to participants and reasonable administrative expenses.
These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of each
plan.
        The present value of nonrecoverable future financial assistance represents the estimated
nonrecoverable payments to be provided by the PBGC in the future to multiemployer plans that will
not be able to meet their benefit obligations. The present value of nonrecoverable future financial
assistance is based on the difference between the present value of future guaranteed benefits and
expenses and the market value of plan assets, including the present value of future amounts expected to
be paid by employers, for those plans that are expected to require future assistance. The amount
reflects the rates at which, in the opinion of management, these liabilities (net of expenses) could be
settled in the market for single-premium nonparticipating group annuities issued by private insurers
(see Note 5).
        A liability for a particular plan is included in the "Present Value of Nonrecoverable Future
Financial Assistance" when it is determined that the plan is currently, or will likely become in the
future, insolvent and will require assistance to pay the participants their guaranteed benefit.
Determining insolvency requires considering several complex factors, such as an estimate of future
cash flows, future mortality rates, and age of participants not in pay status.
        Other Expenses: These expenses represent an estimate of the net amount of receivables
deemed to be uncollectible during the period. The estimate is based on the most recent status of the
debtor (e.g., sponsor), the age of the receivables and other factors that indicate the element of
uncollectibility in the receivables outstanding.
        Losses from Completed and Probable Terminations: Amounts reported as losses from
completed and probable terminations represent the difference as of the actual or expected date of plan
termination (DOPT) between the present value of future benefits (including amounts owed under
Section 4022(c) of ERISA) assumed, or expected to be assumed, by the PBGC, less related plan assets
and the present value of expected recoveries from sponsors and members of their controlled group
(see Note 10). When a plan terminates, the previously recorded probable Net claim is reversed and
newly estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line PVFB -
Plans pending termination and trusteeship (this value is usually different from the amount previously
reported), with any change in the estimate being recorded in the Statements of Operations and
Changes in Net Position. In addition, the plan’s net income from date of plan termination to the
beginning of the PBGC’s fiscal year is included as a component of losses from completed and probable
terminations for plans with termination dates prior to the year in which they were added to the PBGC’s
inventory of terminated plans.


        Actuarial Adjustments and Charges (Credits): The PBGC classifies actuarial adjustments
related to changes in method and the effect of experience as underwriting activity; actuarial adjustments
are the result of the movement of plans from one valuation methodology to another, e.g., nonseriatim
(calculating the liability for the group) to seriatim(calculating separate liability for each person), and of
new data (e.g., deaths, revised participant data). Actuarial charges (credits) related to changes in interest
rates and passage of time are classified as financial activity. These adjustments and charges (credits)
represent the change in the PVFB that results from applying actuarial assumptions in the calculation of
future benefit liabilities (see Note 4).
        Depreciation and Amortization: The PBGC calculates depreciation on the straight-line basis
over estimated useful lives of 5 years for equipment and 10 years for furniture and fixtures. The PBGC
calculates amortization for capitalized software, which includes certain costs incurred for purchasing
and developing software for internal use, on the straight-line basis over estimated useful lives not to
exceed 5 years, commencing on the date that the Corporation determines that the internal-use software
is implemented. Routine maintenance and leasehold improvements (the amounts of which are not
material) are charged to operations as incurred.


Note 3 -- Investments
        Premium receipts are invested through the revolving fund in U.S. Treasury securities.
The trust funds include assets the PBGC assumes or expects to assume with respect to terminated
             plans (e.g., recoveries from sponsors) and investment income thereon. These assets generally are held
             by custodian banks. The basis and market value of the investments by type are detailed below as well
             as related investment profile data. The basis indicated is cost of the asset if assumed after the date of
             plan termination or the market value at date of plan termination if the asset was assumed as a result of
             a plan’s termination. The PBGC marks the plan’s assets to market and any increase or decrease in the
             market value of a plan’s assets occurring after the date on which the plan is terminated must, by law, be
             credited to or suffered by the PBGC. For the PBGC's securities, unrealized holding gains and losses
             are both recognized by including them in earnings. Unrealized holding gains and losses measure the
             total change in fair value--consisting of unpaid interest income earned or unpaid accrued dividend and
             the remaining change in fair value from holding the security. As the table below illustrates, the market
             value of investments of the single-employer program increased significantly from September 30, 2005,
             to September 30, 2006.




INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS AND SINGLE-EMPLOYER TRUSTEED PLANS


                                                                                 September 30,                             September 30,
                                                                                      2006                                     2005
                                                                                           Market                                    Market
(Dollars in millions)                                                           Basis       Value                        Basis        Value
Fixed maturity securities:
  U.S. Government securities                                                 $20,195        $19,838                    $21,562         $21,417
  Commercial paper                                                             1,591           1,591                       336             336
  Asset backed securities                                                      3,714          3,692                      3,286            3,265
  Corporate and other bonds                                                   10,516         10,382                      8,194            8,142
  Subtotal                                                                    36,016         35,503                     33,378          33,160
Equity securities                                                              9,127         13,730                      8,565          12,284
Real estate and real estate investment trusts                                        6             4                        33               29
Insurance contracts and other investments                                            12            1                        32               25
Total *                                                                      $45,161        $49,238                    $42,008         $45,498

* This includes securities on loan at September 30, 2006, and September 30, 2005, with a market value of $6.352 billion and $6.769 billion, respectively.




INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
                                                  September 30,            September 30,
                                                     2006                      2005
                                                           Market                    Market
(Dollars in millions)                         Basis         Value       Basis        Value
Fixed maturity securities:
  U.S. Government securities                                                $1,191           $1,159                     $1,151          $1,134
Equity securities                                                                0                0                          0                0
Total                                                                       $1,191           $1,159                     $1,151          $1,134
                      INVESTMENT PROFILE
                                                                    September 30,
                                                                 2006          2005
                      Fixed Income Assets
                      Average Quality                            AA          AAA
                      Average Maturity (years)                  18.6         16.6
                      Duration (years)                          13.9         10.4
                      Yield to Maturity (%)                      5.3          4.8

                      Equity Assets
                      Average Price/Earnings Ratio              18.7         20.2
                      Dividend Yield (%)                         1.7          1.6
                      Beta                                       1.02         1.03




In addition, the PBGC’s trusteed liability return was 9.0% and the duration (years) of these liabilities was
9.95 at the end of 2006.
Derivative Instruments: Derivatives are accounted for at market value in accordance with
Statement of Financial Accounting Standards No. 133, as amended. Derivatives are marked to market
with changes in value reported within financial income. These instruments are used to mitigate risk
and/or enhance the PBGC’s investment returns. The standard requires disclosure of fair value of these
instruments. During fiscal years 2005 and 2006, the PBGC invested in investment products that used
various U.S. and non-U.S. derivative instruments including but not limited to: money market and
government bond futures and forward contracts, swap contracts, swaption contracts, stock warrants and
rights, debt option contracts and foreign currency forward and option contracts. Some of these
derivatives are traded on organized exchanges and thus bear minimal counterparty risk. The
counterparties to the PBGC’s non-exchange-traded derivative contracts are major financial institutions.
The PBGC monitors its counterparty risk and has never experienced non-performance by any of its
counterparties.
        Futures are exchange-traded contracts specifying a future date of delivery or receipt of a certain
amount of a specific tangible or intangible product. The futures exchange’s clearinghouses clear, settle,
and guarantee transactions occurring through its facilities. Futures contracts are held as efficient and
liquid substitutes for purchases and sales of financial market indices and securities. Open futures
positions are marked to market daily. An initial margin of generally 1 to 6 percent is maintained with
the broker in Treasury bills or similar instruments. In addition, futures contracts require daily settlement
of variation margin resulting from the marks to market. In periods of extreme volatility, margin calls
may create a high liquidity demand on the underlying portfolio. To mitigate this, the PBGC maintains
adequate liquidity in its portfolio to meet these margin calls.
        Foreign currency forward and option contracts are used to hedge currency exposure (i.e.,
minimize currency risk) of certain assets and to adjust overall currency exposure to reflect the
investment views of the portfolio managers regarding relationships between currencies. Other
investments held by the Corporation include swap contracts and swaption (i.e., option on swap)
contracts. A swap is an agreement between two parties to exchange different financial returns on a
notional investment amount. For example, an interest rate swap involves exchanges of fixed rate and
floating rate interest. There is no exchange of the underlying principal. The PBGC uses swap and
swaption contracts to adjust exposure to interest rates, fixed income securities exposure and credit
exposure, and to generate income based on the investment views of the portfolio managers regarding
interest rates, indices and debt issues. Stock warrants and rights allow the PBGC to purchase securities
at a stipulated price within a specified time limit. For the fiscal years ended September 30, 2005 and
2006, respectively, gains and losses from settled margin calls are reported in Investment income on the
Statements of Operations and Changes in Net Position.
        The following table summarizes the notional amounts and fair market values of derivative
financial instruments held or issued for trading as of September 30, 2006, and September 30, 2005.
                                                             Sept. 30, 2006                  Sept. 30, 2005
INTEREST RATE CONTRACTS (IRC)                             Notional     FMV                  Notional FMV
(Dollars in millions)

Forwards                                                       $     685       $        2     $ 149        $ 0

Futures                                                        10,910               (6)        5,098          6
  Contracts in a receivable position                            2,940                0         1,645         15
  Contracts in a payable position                               7,970               (6)        3,453         (9)

Swap Agreements                                                    5,440           (11)        4,385         38

Options purchased (long)                                            110            17                       2
                                                                                                       0

Options written (sold short)                                        651            (19)           80            0

                                                           Sept. 30,2006                     Sept. 30, 2005
FOREIGN EXCHANGE CONTRACTS (FEC)                          Notional     FMV                  Notional     FMV
(Dollars in millions)

Forwards                                                      $1,767       $        1        $ 1,129       $ (3)




         Security Lending: The PBGC participates in a security lending program administered by its
 custodian bank. The custodian bank requires collateral that equals 102 percent to 105 percent of the
 securities lent. The collateral is held by the custodian bank. In addition to the lending program
 managed by the custodian bank, some of the PBGC’s investment managers are authorized to invest in
 repurchase agreements and reverse repurchase agreements. The manager either receives cash as
 collateral or pays cash out to be used as collateral. Any cash collateral received is invested. The total
 value of securities on loan at September 30, 2006, and September 30, 2005, was $6.352 billion and
 $6.769 billion, respectively. Although securities on loan have decreased slightly since September 30,
 2005, there continues to be an ongoing demand for fixed income securities to lend.
         The amount of cash collateral received for these loaned securities was $6.491 billion at
 September 30, 2006, and $6.939 billion at September 30, 2005. These amounts are recorded in cash and
 are offset with a corresponding liability. The PBGC had earned income from securities lending of
 $5.2 million as of September 30, 2006 and $4.0 million as of September 30, 2005.
        Of the $6.352 billion market value of securities on loan at September 30, 2006, approximately
88% are invested in U.S. government securities and 9% in U.S. corporate securities. The PBGC had
approximately $16.588 billion of securities available for securities lending at September 30, 2006.


Note 4 -- Present Value of Future Benefits
        The following table summarizes the actuarial adjustments, charges and credits that explain how
the Corporation’s single-employer program liability for the present value of future benefits changed for
the years ended September 30, 2006 and 2005.
        For FY 2006, the PBGC used a 25-year select interest factor of 4.85% followed by an ultimate
factor of 4.82% for the remaining years. For FY 2005, the PBGC used a 25-year select interest factor of
5.2% followed by an ultimate factor of 4.5% for the remaining years. These factors were determined to
be those needed, given the mortality assumptions, to continue to match the survey of annuity prices
provided by the American Council of Life Insurers (ACLI). Both the interest factor and the length of the
select period may vary to produce the best fit with these prices. The prices reflect rates at which, in the
opinion of management, the liabilities (net of administrative expenses) could be settled in the market at
September 30, for the respective year, for single-premium nonparticipating group annuities issued by
private insurers. Many factors, including Federal Reserve policy, changing expectations about longevity
risk, and competitive market conditions may affect these rates.
        For FY 2005, the surveys of annuity prices were used in conjunction with a Moody’s bond index,
averaged over the last five days of each month. For FY 2006, a Lehman’s bond index is used instead;
this index is as of only the last day of the month, and is applied to both the select and ultimate factors
instead of the select factor only as had been prior practice. Finally, interest factors for FY 2006 are now
rounded to two decimal places instead of one so as to be able to state to the level of a single basis point.
For FY 2005 and prior years, the select factor was rounded to ten basis points, and the ultimate factor
was rounded to 25 basis points.
        For September 30, 2006, the PBGC used the 1994 Group Annuity Mortality (GAM) 94 Static
Table (with margins), set forward one year and projected 22 years to 2016 using Scale AA, the same as
the table used in the September 30, 2005 valuation. The number of years that the PBGC projects the
mortality table reflects the number of years from the 1994 base year of the table to the end of the fiscal
year (12 years in 2006 versus 11 years in 2005) plus the PBGC’s calculated duration of its liabilities (10
years in 2006 versus 11 years in 2005). The PBGC’s procedure is based on the procedures
recommended by the Society of Actuaries UP-94 Task Force (which developed the GAM94 table) for
taking into account future mortality improvements.
         The PBGC continues to utilize the results of its 2004 mortality study. The study showed that
the mortality assumptions used in FY 2003 reflected higher mortality than was realized in the PBGC’s
seriatim population. Therefore, the PBGC adopted a base mortality table (i.e., GAM94 set forward one
year instead of GAM94 set forward two years) that better reflects past mortality experience. The ACLI
survey of annuity prices, when combined with that mortality table, provides the basis for determining
the interest factors used in calculating the PVFB. The insurance annuity prices, when combined with
the stronger mortality table, result in a higher interest factor.
        The reserve for administrative expenses in the 2006 and 2005 valuations were assumed to be
1.18 percent of benefit liabilities plus additional reserves for cases whose plan asset determinations,
participant database audits and actuarial valuations were not yet complete. The expense assumption was
based on a study performed for the PBGC in 2000 by a major accounting firm. The factors to
determine the additional reserves were based on case size, number of participants and time since
trusteeship.
        The present values of future benefits for trusteed multiemployer plans for 2006 and 2005 reflect
the payment of assistance and the changes in interest and mortality assumptions, the passage of time and
the effect of experience.
        The resulting liability represents the PBGC’s best estimate of the measure of anticipated
experience under these programs.
RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS FOR THE YEARS ENDED SEPTEMBER 30, 2006 AND 2005
                                                                          September 30,

(Dollars in millions)                                                                                        2006                                               2005
Present value of future benefits, at beginning
      of year -- Single-Employer, net                                                                                $ 69,737                                          $ 60,836
  Estimated recoveries, prior year                                                                                        343                                               364
  Assets of terminated plans pending trusteeship, net, prior year                                                       3,039                                               678
  Present value of future benefits at beginning of year, gross                                                         73,119                                            61,878
  Settlements and judgments, prior year                                                                                   (58)                                              (65)
  Net claims for probable terminations, prior year                                                                    (10,470)                                          (16,926)
  Actuarial adjustments -- underwriting:
    Changes in method and assumptions                                                              $     (609)                                             $    17
    Effect of experience                                                                                  185                                                  203
    Total actuarial adjustments -- underwriting                                                          (424)                                                 220
  Actuarial charges -- financial:
    Passage of time                                                                                      3,206                                              2,618
    Change in interest rates                                                                             2,037                                             (2,348)
    Total actuarial charges -- financial                                                                 5,243                                                270
  Total actuarial charges, current year                                                                                 4,819                                              490
  Terminations:
    Current year                                                                                         1,112                                            21,191
    Changes in prior year                                                                                  130                                              (292)
    Total terminations                                                                                                 1,242                                            20,899
  Benefit payments, current year *                                                                                    (4,082)                                           (3,685)
  Estimated recoveries, current year                                                                                     (62)                                             (343)
  Assets of terminated plans pending trusteeship, net, current year                                                     (282)                                           (3,039)
  Settlements and judgments, current year                                                                                 55                                                58
  Net claims for probable terminations:
    Future benefits**                                                                                   17,430                                            23,918
    Estimated plan assets and recoveries from sponsors                                                 (12,568)                                          (13,448)
    Total net claims, current year                                                                                      4,862                                           10,470
Present value of future benefits,
  at end of year -- Single-Employer, net                                                                               69,143                                           69,737
Present value of future benefits,
  at end of year -- Multiemployer                                                                                           2                                                 2
Total present value of future benefits, at end of year, net                                                          $ 69,145                                          $ 69,739

*            The benefit payments of $4,082 million and $3,685 million include $76 million in 2006 and $384 million in 2005 for benefits paid from plan assets by plans prior to
             trusteeship.
**           The future benefits for probable terminations of $17,430 million and $23,918 million for fiscal years 2006 and 2005, respectively, include $87 million and
             $137 million, respectively, in net claims (future benefits less estimated plan assets and recoveries) for probable terminations not specifically identified and
             $17,343 million and $23,781 million, respectively, in net claims for specifically identified probables.




             The following table details the assets that make up single-employer terminated plans pending termination
             and trusteeship:

ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION AND TRUSTEESHIP, NET

                                                                                          September 30,                                 September 30,
                                                                                              2006                                          2005
                                                                                                   Market                                         Market
(Dollars in millions)                                                                   Basis      Value                             Basis        Value


Corporate and other bonds                                                                $107              $113                   $1,043            $1,053
Equity securities                                                                         117               156                    1,968             1,992
Insurance contracts                                                                          4                   4                      2                 2
Other                                                                                        9                   9                     (7)               (8)
Total, net                                                                               $237              $282                    $3,006           $3,039
                        Net Claims for Probable Terminations: Factors that are presently not fully determinable may
             be responsible for these claim estimates differing from actual experience. Included in net claims for
             probable terminations is a provision for future benefit liabilities for plans not specifically identified.
                        The values recorded in the following reconciliation table have been adjusted to the expected
             dates of termination.



RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS

                                                                                              September 30,
(Dollars in millions)                                                            2006                             2005
Net claims for probable terminations, at beginning of year                              $10,470                          $16,926
New claims                                                             $ 3,063                           $ 4,738
Actual terminations                                                      (288)                            (10,637)
Deleted probables                                                      (8,035)                                 (83)
Change in benefit liabilities                                            (867)                                (205)
Change in plan assets                                                     519                                 (269)
Loss (credit) on probables                                                               (5,608)                         (6,456)
Net claims for probable terminations, at end of year                                    $ 4,862                          $10,470




             The following table itemizes the probable exposure by industry:


PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)

(Dollars in millions)                                             FY             FY 2005
                                                                2006
Manufacturing                                                 $3,318               $ 612
Transportation, Communication and Utilities                    1,279                 9,570
Services/Other                                                   197                   233
Agriculture, Mining, and Construction                             41                    37
Finance, Insurance, and Real Estate                               20                     -
Wholesale and Retail Trade                                         7                    18
Total                                                         $4,862               $10,470



             For further detail, see Note 2 subpoint (4)
                        The following table shows what has happened to plans classified as probables. This table
             does not capture or include those plans that were not previously classified as probable before they
             terminated. This table incorporates the impact of the PPA legislation which was an unpredictable
             factor impacting the PBGC's ability to predict probables as terminations.


PROBABLES EXPERIENCE - Actual
As Initially Recorded Beginning in 1987

(Dollars in millions)                                                   Status of Probables from 1987-2005 at September 30, 2006
                                                                        Number of        Percent of         Net       Percent of
Beginning in 1987, number of plans reported as Probable:                     Plans             Plans      Claim       Net Claim
  Probables terminated                                                         290              76%     $22,057              66%
  Probables not yet terminated or deleted                                       15               4        2,004               6
  Probables deleted *                                                           77              20        9,344              28
  Total                                                                        382             100%     $33,405            100%


* "Probables deleted" in the above table includes 5 plans deleted due to airline relief provisions pursuant to
PPA, causing the percent of plans to increase from 19% to 20% and the percent of net claims to increase
from 3% to 28%.




Note 5 -- Multiemployer Financial Assistance
             The PBGC provides financial assistance to multiemployer defined benefit pension plans in the form
of loans. An allowance is set up to the extent that repayment of these loans is not expected.
                              NOTES RECEIVABLE
                              MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                                       September 30,
                           (Dollars in millions)                             2006                      2005
                           Gross balance at beginning of year                $ 85                      $ 71
                           Financial assistance payments-current year            70                     14
                           Subtotal                                              155                    85
                           Allowance for uncollectible amounts                (155)                    (85)
                           Net balance at end of year                        $     0                   $ 0
        The losses from financial assistance reflected in the Statements of Operations and Changes
in Net Position include period changes in the estimated present value of nonrecoverable future
financial assistance.

                 PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
                 ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
               ________________________________________________________________________
                                                                          September 30,
               (Dollars in millions)                               2006                  2005
               Balance at beginning of year                       $1,485                $1,295
               Changes in allowance:
                Losses from financial assistance                     461                  204
                 Financial assistance granted
                   (previously accrued)                              (70)                  (14)
               Balance at end of year                             $1,876                $1,485




Note 6 -- Accounts Payable and Accrued Expenses
        The following table itemizes accounts payable and accrued expenses reported in the
Statements of Financial Condition:

                  ACCOUNTS PAYABLE AND ACCRUED EXPENSES

                                                                               September 30,
               (Dollars in millions)                                 2006                   2005


               Annual leave                                           $ 5                      $ 5
               Other payables and accrued expenses                        88                     65
               Accounts payable and accrued expenses                  $93                      $70




Note 7 -- Contingencies

        Single-employer plans sponsored by companies whose credit quality is below investment
grade pose a greater risk of being terminated. In addition, there are some multiemployer plans that
may require future financial assistance. The amounts disclosed below represent the Corporation’s
best estimates of the reasonably possible losses in these plans given the inherent uncertainties about
these plans.
        In accordance with Statement of Financial Accounting Standards No. 5, the PBGC classified
a number of these companies as reasonably possible terminations as the sponsors’ financial
condition and other factors did not indicate that termination of their plans was likely as of year-end.
The best estimate of aggregate unfunded vested benefits exposure to the PBGC for the companies’
single-employer plans classified as reasonably possible as of September 30, 2006, was $73 billion.
The drop from $108 billion in FY 2005 to $73 billion in FY 2006 is primarily attributable to a net
reduction in the unfunded vested benefit liabilities of the plans whose sponsors remained at risk.
        The estimated unfunded vested benefits exposure has been calculated as of December 31,
2005, and is not based on the PBGC guaranteed levels. The PBGC calculated this estimate as in
previous years by using data obtained from filings and submissions to the government and from
corporate annual reports for fiscal years ending in calendar 2005. The Corporation adjusted the
value reported for liabilities to a December 31, 2005, PBGC select rate of 4.5% that was derived
using 83 GAM mortality. When available, data were adjusted to a consistent set of mortality
assumptions. The underfunding associated with these plans would generally tend to be greater at
September 30, 2006, because of the economic conditions that existed between December 31, 2005,
and September 30, 2006. During this nine month period, the PBGC estimates that the aggregate
Unfunded Vested Benefits increased approximately within a range of 15% to 25%. The Corporation
did not adjust the estimate for events that occurred between December 31, 2005, and September 30,
2006.
             The following table itemizes the reasonably possible exposure by industry:
REASONABLY POSSIBLE EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
(Dollars in millions)                             FY 2006       FY 2005
Manufacturing                                     $37,634        $ 71,332
Transportation, Communication and Utilities        20,509          17,567
Services/Other                                      6,969           8,623
Wholesale and Retail Trade                          6,096           7,296
Agriculture, Mining and Construction                1,220           1,731
Finance, Insurance, and Real Estate                   857           1,490
Total                                             $73,285       $108,039




        The PBGC included amounts in the liability for the present value of nonrecoverable future
financial assistance (see Note 5) for multiemployer plans that the PBGC estimated may require
future financial assistance. In addition, the PBGC currently estimates that it is reasonably possible
that other multiemployer plans may require future financial assistance in the amount of $83 million.
        The Corporation calculated the future financial assistance liability for each multiemployer plan
identified as probable (see Note 5), or reasonably possible as the present value of guaranteed future
benefit and expense payments net of any future contributions or withdrawal liability payments as of
the later of September 30, 2006, or the projected (or actual, if known) date of plan insolvency,
discounted back to September 30, 2006. The Corporation’s identification of plans that are likely to
require such assistance and estimation of related amounts required consideration of many complex
factors, such as an estimate of future cash flows, future mortality rates, and age of participants not in
pay status. These factors are affected by future events, including actions by plans and their
sponsors, most of which are beyond the Corporation’s control.
        The PBGC used select and ultimate interest rate assumptions of 4.85% for the first 25 years
after the valuation date and 4.82% thereafter. The Corporation also used the 1994 Group Annuity
Mortality Static Table (with margins), set forward one year, projected 22 years to 2016 using Scale
AA.

Note 8 -- Commitments
        The PBGC leases its office facility under a new commitment that began on January 1, 2005, and
expires December 10, 2018. The new lease agreement was entered into because of the need for
additional office space. This lease provides for periodic rate increases based on increases in operating
costs and real estate taxes over a base amount. In addition, the PBGC is leasing space for field benefit
administrators. These leases began in 1996 and expire in 2013. The minimum future lease payments for
office facilities having noncancellable terms in excess of one year as of September 30, 2006, are as
follows:
COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                        Operating
September 30,                                                         Leases
2007                                                                      $ 19.4
2008                                                                       19.0
2009                                                                       18.3
2010                                                                       18.1
2011                                                                       19.2
Thereafter                                                             145.9
Minimum lease payments                                                $239.9



       Lease expenses were $18.7 million in 2006 and $18.0 million in 2005.

Note 9 -- Premiums
       For both the single-employer and multiemployer programs, ERISA provides that the PBGC shall
continue to guarantee basic benefits despite the failure of a plan administrator to pay premiums when
due. The PBGC assesses interest and penalties on the unpaid portion of or underpayment of premiums.
Interest continues to accrue until the premium and the interest due are paid. Due to the enactment of
the Deficit Reduction Act of 2005, flat-rate premiums for single-employer pension plans increased from
$19 to $30 per participant and the multiemployer plans yearly premium increased from $2.60 to $8 per
participant. The new rates are effective for plan year 2006, and will be indexed for wage inflation
beginning in plan year 2007. The PBGC recorded premium income, excluding interest and penalty, of
approximately $941 million in flat-rate premiums and $550 million in variable-rate premiums for fiscal
year 2006, and approximately $670 million in flat-rate premiums and $787 million in variable-rate
premiums for fiscal year 2005.
       Since premium income for FY 2006 primarily consists of plan year 2006 and 2005 premiums, and
revenue recognition accounting principles require partial recognition of plan year 2006 premiums as of
September 30, 2006, the 2006 increase in flat-rate premium income represents approximately 65% of the
full impact to the plan year 2006 flat-rate premiums due for all plans.
Note 10 -- Losses from Completed and Probable Terminations
        Amounts reported as losses are the present value of future benefits less related plan assets and the
present value of expected recoveries from sponsors. The following table details the components that
make up the losses:

LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS -- SINGLE-EMPLOYER PROGRAM
                                                                           For the Years Ended September 30,
                                                            2006                                                  2005
                                                      Changes in                                             Changes in
                                            New       Prior Year                                   New       Prior Year
(Dollars in millions)                   Terminations Terminations             Total            Terminations Terminations            Total
Present value of future benefits                $1,112         $    130      $ 1,242               $ 21,191           $ (292)     $20,899
Less plan assets                                  582              1,370       1,952                   10,516               0      10,516
Plan asset insufficiency                          530           (1,240)         (710)                  10,675            (292)     10,383
Less estimated recoveries                            3             (165)        (162)                       9             (37)        (28)
Subtotal terminated plans                         527*          (1,075)        (548)                   10,666 *          (255)     10,411
Settlements and judgments                                              1          1                                         (1)        (1)
Loss (credit) on probables                       (288)          (5,320)       (5,608)**            (10,637)              4,181     (6,456)**
Total                                          $ 239          $(6,394)       $(6,155)              $      29         $3,925       $ 3,954

 * gross amounts for plans terminated during the year
** see Note 4 - includes $288 million at September 30, 2006, and $10,637 million at September 30, 2005, previously recorded relating to plans
   that terminated during the period
  Note 11 -- Financial Income
      The following table details the combined financial income by type of investment for both the single-
  employer and multiemployer programs:


  Investment Income - Single-Employer and Multiemployer Programs

                                 Single-Employer Multiemployer     Memorandum      Single-Employer   Multiemployer   Memorandum
                                      Program       Program           Total            Program         Program         Total
(Dollars in millions)              Sept 30, 2006   Sept 30, 2006   Sept 30, 2006    Sept 30, 2005    Sept 30, 2005   Sept 30, 2005

Fixed income securities:
 Interest earned                      $1,756            $ 56          $1,812            $1,270             $ 53      $1,323
 Realized gain (loss)                   (815)            (44)           (859)            1,361              82        1,443
 Unrealized loss                        (547)            (13)           (560)             (876)            (56)        (932)
 Total fixed income securities           394              (1)            393             1,755              79        1,834
Equity securities:
 Dividends earned                         89               0              89                81               0           81
 Realized gain                           522               0             522             1,540               0        1,540
 Unrealized gain                       1,182               0            1,182              493               0          493
 Total equity securities               1,793               0           1,793             2,114               0        2,114
Other income                              (3)              0              (3)               28               0           28
Total investment income (loss)        $2,184            $ (1)         $2,183            $3,897             $ 79      $3,976




  Note 12 -- Employee Benefit Plans
                        All permanent full-time and part-time the PBGC employees are covered by the Civil
  Service Retirement System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and
  part-time employees with less than five years service under CSRS and hired after December 31, 1983,
  are automatically covered by both Social Security and FERS. Employees hired before January 1, 1984,
  participate in CSRS unless they elected and qualified to transfer to FERS.
                        The Corporation’s contribution to the CSRS plan for both 2006 and 2005 was
  7.0 percent of base pay for those employees covered by that system. For those employees covered by
  FERS, the Corporation’s contribution was 10.7 percent of base pay for both 2006 and 2005. In
  addition, for FERS-covered employees, the PBGC automatically contributes one percent of base pay to
  the employee’s Thrift Savings account, matches the first three percent contributed by the employee and
  matches one-half of the next two percent contributed by the employee. Total retirement plan expenses
  amounted to $13 million in 2006 and $11 million in 2005.
                        These financial statements do not reflect CSRS or FERS assets or accumulated plan
benefits applicable to the PBGC employees. These amounts are reported by the U.S. Office of
Personnel Management (OPM) and are not allocated to the individual employers. OPM accounts for
federal health and life insurance programs for those eligible retired PBGC employees who had selected
federal government-sponsored plans. The PBGC does not offer other supplemental health and life
insurance benefits to its employees.


Note 13 -- Cash Flows
        The following two tables, one for Sales and one for Purchases, provide further details on cash
flows from investment activity. Sales and purchases of investments are driven by the level of newly
trusteed plans, the unique investment strategies implemented by the PBGC’s investment managers, and
the varying capital market conditions in which they invest during the year. Several investment strategies
in use in 2006 involved higher volume short term investments, particularly in the fixed income area, as
shown in the Investing Activities table below. These cash flow numbers can vary significantly from year
to year based on the fluctuation in these three variables.




                 INVESTING ACTIVITIES

                                                                          September 30,
                 (Dollars in millions)                             2006                   2005

                 Proceeds from sales of investments:
                    Fixed maturity securities                      $84,901                 $125,646
                    Equity securities                                2,622                    8,515
                    Other/uncategorized                              4,857                    2,395
                 Total                                             $92,380                 $136,556


                 Payments for purchases of investments:
                    Fixed maturity securities                     $(88,655)               $(139,681)
                    Equity securities                               (2,942)                  (7,022)
                    Other/uncategorized                              (653)                    5,156
                 Total                                            $(92,250)               $(141,547)
             The following is a reconciliation between the net income as reported in the Statements of Operations
             and Changes in Net Position and net cash provided by operating activities as reported in the Statements
             of Cash Flows.


RECONCILIATION OF NET INCOME TO NET CASH PROVIDED BY OPERATING ACTIVITIES


                                                                   Single-Employer             Multiemployer                 Memorandum


                                                                           Program                   Program                         Total
                                                                    September 30,               September 30,                 September 30,
(Dollars in millions)                                              2006             2005     2006              2005          2006             2005
Net income (loss)                                            $ 4,634          $     529     $(404)         $(99)       $ 4,230           $     430
Adjustments to reconcile net income to net cash
provided by operating activities:
   Net (appreciation) decline in fair value of investments        (350)           (2,481)      61              (26)         (289)        (2,507)
    Net gain of plans pending termination and trusteeship            19              46         0                0             19              46
    Losses on completed and probable terminations                (6,155)          3,954         0                0         (6,155)           3,954
    Actuarial charges                                             4,819             490         0                0          4,819             490
    Benefit payments - trusteed plans                            (4,006)          (3,301)       0                (1)       (4,006)       (3,302)
    Settlements and judgments                                        (3)              (5)       0                0             (3)              (5)
    Cash received from plans upon trusteeship                        75             218         0                0             75             218
    Receipts from sponsors/non-sponsors                            886              216         0                0           886              216
    Amortization of discounts/premiums                            (319)             128       (28)              11          (347)             139
    Changes in assets and liabilities, net of effects
       of trusteed and pending plans:
           Decrease in receivables                                  150              31        11                0            161              31
           Increase in present value of nonrecoverable
            future financial assistance                                                       391              190            391             190
          Increase (decrease) in unearned premiums                   88             (13)       19                 0           107             (13)
          Increase (decrease) in accounts payable                    23              (1)        0                0             23              (1)
Net cash provided (used) by operating activities             $     (139)       $ (189)      $ 50               $ 75    $     (89)        $ (114)
Note 14 -- Litigation
     The PBGC was involved in numerous litigation matters in 2006. At the end of the fiscal year, the
PBGC had 487 open, active bankruptcy cases and 64 active litigation matters (other than in bankruptcy
court). The PBGC records as a liability on its financial statements an estimated cost for unresolved
litigation to the extent that losses in such cases are probable and estimable in amount. At September 30,
2006, the PBGC estimated that possible losses of up to $269.2 million could be incurred in the event that
the PBGC does not prevail in these matters. In October 2006, the PBGC received a favorable decision in
one of these litigation matters in the amount of $84.2 million. These possible losses are not recognized in
the financial statements.


Note 15 -- Subsequent Events
     For the year ended September 30, 2006, there were no subsequent events to report on either the
single-employer or multiemployer program.
                   Section III

Independent Auditor’s Report on Internal Control
                                                                                   t

a1
                              Independent Auditor’s Report on Internal Control


To the Inspector General of the
Pension Benefit Guaranty Corporation


We have examined management’s assertion included in the Annual Management Report, that the
Pension Benefit Guaranty Corporation (PBGC) maintained effective internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations as
of September 30, 2006, based on the criteria contained in the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA) (31 U.S.C. 3512). PBGC’s management is responsible for
maintaining effective internal control over financial reporting. Our responsibility is to express an
opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants; Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 06-03, Audit Requirements for Federal Financial Statements, and, accordingly,
included obtaining an understanding of the internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations, testing and evaluating the design
and operating effectiveness of the internal control, and performing such other procedures as we
considered necessary in the circumstances. We believe that our examination provides a
reasonable basis for our opinion.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in any internal control, misstatements due to error,
fraud, losses, or noncompliance may occur and not be detected. Also, projections of any
evaluation of the internal control over financial reporting to future periods are subject to the risk
that the internal control may become inadequate because of changes in conditions, or that the
degree of compliance with the policies or procedures may deteriorate.

In our opinion, management’s assertion that PBGC maintained effective internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations as
of September 30, 2006 is fairly stated, in all material respects, based on criteria contained in
FMFIA.



Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                       Offices in 15 states and Washington, DC     h
However, we noted certain matters involving the internal control over financial reporting
(including safeguarding assets) and compliance with laws and regulations and its operation that
we consider to be reportable conditions. Reportable conditions involve matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations
that, in our judgment, could adversely affect PBGC’s ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements.
Reportable conditions we noted are as follows:

     1. PBGC needs to integrate its financial management systems (Repeat Condition).
     2. PBGC needs to complete its efforts to fully implement and enforce an effective
        information security program (Repeat Condition).
     3. PBGC needs to improve controls related to single-employer premiums (Repeat
        Condition).
     4. PBGC needs to strengthen its preparedness for unanticipated incidences and disruptions
        (Repeat Condition).

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. We believe that none of
the reportable conditions described in this report are material weaknesses.

                              ********************************

REPORTABLE CONDITIONS

1.     PBGC Needs to Integrate Its Financial Management Systems (Repeat Condition)

       A lack of integration of PBGC’s significant financial management systems was identified
       in prior year audits. These systems include: Financial Reporting System (FRS),
       Performance Accounting (PA) System, Trust Accounting System (TAS), Participant
       Records Information System Management (PRISM), Premium Accounting System
       (PAS), Integrated Present Value of Future Benefits (IPVFB), and Pension and Lump Sum
       System (PLUS).

       OMB Circular A-127, Financial Management System, requires that financial
       management systems should be designed to provide for effective and efficient
       interrelationships between systems. This Circular states the following:

               “The term "single, integrated financial management system" means a
               unified set of financial systems and the financial portions of mixed
               systems encompassing the software, hardware, personnel, processes
               (manual and automated), procedures, controls and data necessary to carry
               out financial management functions, manage financial operations of the
       agency and report on the agency's financial status to central agencies,
       Congress and the public. Unified means that the systems are planned for
       and managed together, operated in an integrated fashion, and linked
       together electronically in an efficient and effective manner to provide
       agency-wide financial system support necessary to carry out the agency's
       mission and support the agency's financial management needs.”

OMB’s Office of Federal Financial Management’s (OFFM – formerly the Joint Financial
Management Improvement Program – JFMIP) Core Financial System Requirements
document, lists the following integrated financial management system attributes:

       Standard data classifications (definition and formats) established and used for
       recording financial events.
       Common processes used for processing similar kinds of transactions.
       Internal controls over data entry, transaction processing, and reporting applied
       consistently.
       A system design that eliminates unnecessary duplication of transaction entry.

PBGC has manual controls related to its significant financial management systems and is
making progress to further improve data integrity controls and promote further
integration of systems, as evidenced by the following:

       The system interface controls, used to reconcile data transmitted to and from the
       three general ledger applications, TAS, PA, and FRS, appear to be operating
       effectively.
       The manual interface controls, used to reconcile data between IPVFB and FRS,
       appear to be operating effectively.

Additionally, management stated that:

       PBGC performed testing of its commercially based general ledger system,
       Consolidated Financial System (CFS), which integrates the three previously
       separate ledger systems (TAS, PA and FRS), and incorporates full budget
       execution and administrative payment processes. This Oracle Enterprise
       Resources Planning software system allows organizations to be compliant with
       OFFM’s Core Financial System Requirements. PBGC will make CFS its system
       of record, effective October 1, 2006.
       PBGC also integrated the design of its premium system upgrade, Premium
       Payment System (PPS), into the design of CFS. During FY 2006 a contract was
       awarded for the design and implementation of that critical element as a sub-ledger
       with an anticipated completion date of October 2007.

Despite the above, we believe more needs to be done to integrate PBGC's existing
significant financial management systems. We identified the following factors relevant
to the integration of systems:
Lack of standard data classifications and common data elements:

       PBGC management has indicated that a logical database model is being
       developed. Therefore, no centralized data catalog defining data elements or data
       access method was available for current databases.
       The current decentralized database structure may lead to erroneous financial and
       participant data. For example, the same data elements are required to be
       reformatted or are used for different purposes across PBGC's various applications.
       The current decentralized database structure may lead to untimely financial or
       participant data. Participant data must be reformatted and distributed to multiple
       PBGC systems; therefore, users may be relying on outdated information to make
       business decisions.

Duplication of transaction entry:

       PBGC uses three general ledger systems, TAS, PA, and FRS, to track and record
       trust, revolving, and consolidated transactions, respectively, rather than one
       system to track and record all three. Therefore, manual processes and adjustments
       are required to synchronize the data from TAS and PA to FRS; however, it is
       anticipated by management that CFS will address these issues for FY 2007.
       Probable and multiemployer plan data initially entered into IPVFB must be
       manually re-entered into a spreadsheet and then manually entered into FRS as
       adjusting journal entries.
       Plan data initially entered into the Case Administration System (CAS) application
       must be re-entered into the TAS application's portfolio header.
       Plan contingency listings are determined using data extracted from PAS.
       However, plans with multiple filings must be manually aggregated before the
       plans can be classified.
       Plan sponsor data initially entered into PAS to process receivables must also be
       entered into PA to process refunds. Management stated that this has been
       addressed in the design of the new CFS/PPS system.

Poor data integrity:

       The data in PAS requires significant manual review and adjustment before it can
       be used for the purpose of reporting the premium income and receivables in
       PBGC's financial statements.

In the short term, PBGC’s ability to accurately and efficiently accumulate and summarize
information required for internal and external financial reporting may be impacted. For
this reason, this issue remains a reportable condition for fiscal year (FY) 2006.
     Recommendation:

     We are encouraged by the improvement made and direction taken by PBGC in the areas
     noted above. However, we recommend that PBGC continue its efforts in this area by
     doing the following:

            Integrate its financial management systems, in accordance with OMB Circular A-
            127. (OIG Control Number FOD-268)

2.   PBGC Needs to Complete its Efforts to Fully Implement and Enforce an Effective
     Information Security Program (Repeat Condition)

     Improvement is needed in PBGC’s enterprise-wide security management program as
     indicated in prior year audits. During our FY 2006 review of PBGC's existing security
     program, we noted that PBGC made the following progress:

            PBGC has developed and granted interim approval for its Enterprise Information
            Security Policy in June 2006, pending (a) review of other existing directives for
            possible conflict and overlaps, and (b) circulation for comments by PBGC offices.
            The purpose of PBGC’s information security policy document is to identify and
            disseminate the principles and framework that guide the secure usage of
            information at PBGC.

     Our review of PBGC's existing security program revealed continuing weaknesses in
     controls that expose PBGC's significant financial management systems and data to
     unauthorized access and/or modification. Weaknesses included the following:

            Weaknesses in PBGC’s certification and accreditation (C&A) program impact the
            reporting of accurate and complete information required for PBGC to make
            credible, risk-based decisions related to production system operations. These
            weaknesses compromise PBGC’s ability to accept and manage the risk to PBGC’s
            operations, agency assets, and personnel. Without an effective C&A program,
            there will be no reasonable assurance that PBGC’s information systems are able
            to meet both their functional requirements and provide adequate security to
            protect PBGC’s operations, assets, and personnel. For example, PBGC had not
            completed effective security plans, risk assessments, and testing as part of its
            C&A program. The National Institute of Standards and Technology (NIST)
            Special Publication 800-37, Guide for the Security Certification and Accreditation
            of Federal Information Systems, provides the framework under the Federal
            Information Security Management Act (FISMA) of 2002, Public Law 107-347,
            for how PBGC’s C&A program is to be implemented.
            PBGC’s current information security policy and plan do not comply with
            standards and guidance issued by NIST in furtherance of its statutory
            responsibilities under FISMA. NIST has developed standards and guidelines,
            including minimum requirements for providing adequate information security for
            all agency operations and assets.
       The 2006 reorganization of the Office of Information Technology (OIT) has
       severely impacted the Information System Security Officer’s (ISSO) ability to
       ensure appropriate operational security for PBGC’s information system security
       program. The change in organizational structure further demotes the ISSO
       function in establishing security policies and procedures and reduces clarity on
       the ISSO’s responsibility and accountability. The ISSO function at PBGC has not
       been placed organizationally in a position to effectively carry out PBGC’s
       responsibilities under FISMA.
       OIT’s process for reviewing, approving and disseminating policies and
       procedures needs improvement.           Certain policies presented as approved
       referenced outdated or non-existent policies and procedures. In some cases,
       PBGC policies and procedures were not implemented and enforced because
       responsible officials were not aware of their existence.
       PBGC has not consistently deployed security configurations across its significant
       financial management applications and general support systems.
       PBGC has not formalized effective processes for granting, removing, and
       recertifying user access to significant financial management applications and
       general support systems.
       Application owners or administrators do not perform periodic auditing and
       monitoring of user access and sensitive transactions for significant financial
       management systems.
       OIT management’s, application owners’, and application administrators’ duties
       are not clearly defined regarding user and security administration for significant
       financial management systems.
       PBGC has granted developers inappropriate access to the production
       environment.
       OIT has not developed a process that would allow the ISSO to manage and
       monitor the effectiveness of the entity-wide security program.

Until PBGC implements a complete and effective enterprise-wide information security
program that complies with FISMA and NIST standards and guidance, its ability to
mitigate and appropriately manage the risk of unauthorized access to, and/or modification
or disclosure of sensitive PBGC financial information will be impaired.

Recommendations:

We recommend that PBGC management perform the following:

       Assign specific resources to 1) update the general security plan and associated
       security policies to reflect the current operating environment, and 2) complete the
       implementation of a fully functional and integrated enterprise-wide information
       security program, with priority given to implementation and monitoring of
       technical security standards. (OIG Control Number CTO-5)
       Develop enforcement mechanisms to ensure that all departments comply with the
       enterprise-wide information security program, as well as consistently enforce
            policies and procedures for logical access to information resources that are based
            on the concepts of "least possible privilege". (OIG Control Number CTO-6)
            Implement an organization structure that promotes independence and reporting
            with regard to PBGC’s information security program. (OIG Control Number
            CIO-1)
            Implement a certification and accreditation program that is in full compliance
            with NIST Special Publication 800-37, Guide for the Security Certification and
            Accreditation of Federal Information Systems. (OIG Control Number OIT-86)
            Strengthen the OIT process for reviewing, approving and disseminating policies
            and procedures to ensure documents are 1) accurate, consistent, and properly
            approved, and 2) properly disseminated to the officials and responsible parties for
            their implementation and enforcement. (OIG Control Number OIT-87)

3.   PBGC Needs to Improve Controls Related to Single-Employer Premiums (Repeat
     Condition)

     Management has acknowledged the weaknesses associated with the single-employer
     premiums and has taken steps to improve the internal controls for premiums including the
     FY 2006 award of a contract for the design and implementation of a new premium
     accounting system with an anticipated completion date of October 2007. However, we
     noted continued internal control weaknesses in our 2006 audit.

     The control weaknesses we identified relate to the following internal control objectives:

            Safeguarding of Assets - Ensuring PBGC collects all premiums due under statute.
            OMB Circular A-123, Management’s Responsibility for Internal Control, requires
            that: “The agency head must establish controls that reasonably ensure that: i)
            obligations and costs are in compliance with applicable law; (ii) funds, property,
            and other assets are safeguarded against waste, loss, unauthorized use or
            misappropriation.”
            Financial Reporting - Ensuring PBGC reports complete and reliable premium
            revenue and receivables in the financial statements. OMB Circular A-123 states
            that: “The agency head must establish controls that reasonably ensure that: … iii)
            revenues and expenditures applicable to agency operations are properly recorded
            and accounted for to permit the preparation of accounts and reliable financial and
            statistical reports and to maintain accountability over the assets.”

     Data quality weaknesses:

     During PAS conversion from the legacy Premium Processing System, PBGC experienced
     difficulty in migrating data. In addition, errors due to incorrect data entry, adjustments,
     and system-generated balances while not identified as an ongoing issue during the FY
     2006 audit were noted as issues in the FY 2004 audit and prior years. These difficulties
     are the underlying cause of several of the control weaknesses noted during our testing.
     PBGC’s ability to identify plans that have a premium filing requirement and to collect
     premiums owed is limited because the Audit and Enforcement module within PAS to
     compare Form 1 (premium filing form) filings to pension plan Form 5500 filings with the
     Department of Labor is not currently functional and will not be until the new premium
     system is implemented. A match of this data was performed outside of PAS during FY
     2006; however, the results of this process have not yet been analyzed. Completing this
     analysis would enable PBGC to potentially identify plans which had not filed or paid
     their associated premiums.

     Impact of data quality weaknesses:

     Because of the data quality issues noted, PBGC is unable to efficiently utilize two of its
     primary tools, Past Due Filing Notices (PDFN) and Statements of Account (SOA), to
     ensure the accuracy and completeness of premium data. The PDFN is a PAS-generated
     notice mailed to plans that have not submitted premium filings. The SOA is also a PAS-
     generated notice used to ensure that underpaid or overpaid premiums from a plan sponsor
     are effectively rectified. We noted during the audit that PDFNs and SOAs are not mailed
     timely in accordance with PBGC policy because significant resources must be expended
     prior to mailing each notice to validate the information. Because these notices are not
     mailed in a timely manner, the potential exists that premiums will not be collected or that
     errors in amounts reflected in PAS will not be detected.

     Other control matters:

     Finally, we noted that all of the pertinent policies and procedures related to the premium
     accounting cycle have not been documented, communicated, or implemented throughout
     PBGC.

     Recommendations:

     While we acknowledge that PBGC is currently working toward the implementation of
     a new premium system with an implementation date currently scheduled for October
     2007, we continue to recommend that PBGC:

            Implement controls to reconcile Form 1 information received by PBGC to Form
            5500 information received by the Department of Labor as a means of identifying
            plans that have not filed or paid their associated premiums. (OIG Control
            Number FOD-334)
            Compile a comprehensive polices and procedures manual for processing and
            accounting for premium revenue. (OIG Control Number FOD-335)

4.   PBGC Needs to Strengthen Its Preparedness for Unanticipated Incidences and
     Disruptions (Repeat Condition)

     PBGC has developed a Continuity of Operations Plan (COOP) that identifies and
     exercises its ability to respond to a limited number and type of incidents that impact
operations. However the COOP is just one component of a full spectrum of service
continuity controls that would allow PBGC to reduce the impact on its operations due to
unexpected events. For example, just as losing the capability to process and protect
information maintained on PBGC’s computer systems can significantly impact PBGC’s
ability to accomplish its mission, maintain productivity, and ensure financial integrity,
so would safely evacuating staff from a building due to a fire or similar emergency and
relocating operations or dealing with a pandemic flu outbreak have a comparable
impact.

Strong service continuity controls should identify and address adequate procedures to
minimize the risk of unplanned interruptions and be included in a plan to recover critical
operations should such interruptions occur. This plan should consider the impact on and
recovery of all facilities, personnel, and information systems as they relate to PBGC’s
mission and business objectives. These procedures and plan should be tested
periodically to ensure they will work as intended, and if not, timely corrections can be
made before the next test.

During our FY 2006 review of PBGC's ability to develop and implement a contingency
plan, we noted that PBGC made the following progress:

       PBGC has drafted its contingency planning policy statement which is in the
       process of being approved, disseminated and implemented. The contingency
       planning policy statement will be effective in FY 2007. The policy addresses a
       comprehensive set of objectives for the establishment of the organizational
       framework and responsibilities for comprehensive contingency planning at
       PBGC, of which COOP is one component.
       PBGC is in the process of conducting a business impact analysis (BIA) that will
       address a comprehensive set of contingency planning scenarios to further direct
       its development and implementation of a more robust contingency planning
       process.

We identified the following service continuity control deficiencies in PBGC’s
completion of key elements required in establishing a comprehensive contingency plan:

       PBGC’s current BIA addressed items necessary to develop its COOP. The BIA
       did not address all significant recovery issues related to contingency planning.
       PBGC’s COOP policy statement was too narrow to meet the needs of PBGC.
       This was the only contingency related policy statement in effect during FY 2006.
       It only establishes one objective (e.g. to continue to perform certain critical
       functions of PBGC in the event that an emergency renders or threatens to render
       the PBGC sites unusable). PBGC did not have an approved contingency planning
       policy statement in FY 2006 that addresses a comprehensive set of objectives for
       the establishment of the organizational framework and responsibilities for
       comprehensive contingency planning of which COOP is one component.
       PBGC’s recovery strategies do not address prioritized recovery scenarios based
       on disruption impacts and allowable outage times for the failure and/or
              degradation of critical system components at headquarters. The current strategy
              does not include a combination of methods that complement one another to
              provide recovery capability over the full spectrum of incidents.
              Although PBGC conducts at least two (2) tests of its COOP annually, PBGC has
              not demonstrated its ability to successfully recover its major business processes.
              For example, PBGC could not recover and process several major applications
              during its August 2006 COOP test. The COOP test did not meet intended
              objectives and did not achieve the level of recovery envisaged in the COOP test
              plan. PBGC’s participation in the federal “Forward Challenge” exercise also did
              not demonstrate PBGC’s ability to successfully operate from an alternative site.

       Recommendations:

              First, establish and implement a contingency planning policy statement that
              addresses a comprehensive set of objectives for the establishment of the
              organizational framework and responsibilities for comprehensive contingency
              planning. (OIG Control Number FASD-130)
              Second, conduct a BIA that addresses a full set of contingencies, including system
              outages and degradation issues at headquarters. (OIG Control Number FASD-
              131)
              Finally, develop, document, implement, and test recovery strategies as part of
              PBGC’s COOP to achieve the comprehensive set of objectives in PBGC’s
              contingency planning policy statement and address the disruption impacts and
              allowable outage times identified in PBGC’s comprehensive BIA. (OIG Control
              Number FASD-132)

                            ********************************

In addition to the reportable conditions described above, we noted certain matters involving
internal control and its operation that we reported to the management of PBGC in a separate
letter dated November 9, 2006.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, Government Accountability Office, Office of
Management and Budget, the United States Congress, and the President and is not intended to be
and should not be used by anyone other than these specified parties.


A1
Calverton, Maryland
November 9, 2006
                Section IV

Independent Auditor’s Report on Compliance
            and Other Matters
                                                                              t

a1
                   Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General of the
Pension Benefit Guaranty Corporation


We have audited the financial statements of the Single-Employer and Multiemployer Program
Funds administered by the Pension Benefit Guaranty Corporation (PBGC) as of and for the year
ended September 30, 2006, and have issued our report thereon dated November 9, 2006. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

The management of PBGC is responsible for complying with laws and regulations applicable to
PBGC. As part of obtaining reasonable assurance about whether PBGC’s financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to PBGC.
However, providing an opinion on compliance with those provisions was not an objective of our
audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of noncompliance with laws and
regulations discussed in the preceding paragraph or other matters that are required to be reported
under Government Auditing Standards or OMB Bulletin No. 06-03.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, Government Accountability Office, Office of
Management and Budget, the United States Congress, and the President and is not intended to be
and should not be used by anyone other than these specified parties.


a1
Calverton, Maryland
November 9, 2006

Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                  Offices in 15 states and Washington, DC       h
   Section V

Agency Comments
TO:              Robert L. Emmons, Inspector General


FROM:            Vincent K. Snowbarger, Interim Director


SUBJECT:         PBGC’s Response to the FY 2006 Financial Statement Audit Reports


DATE:            November 13, 2006

Thank you for the opportunity to respond to the three reports issued in connection with the
FY 2006 financial statement audit, by Clifton Gunderson, LLP, with the oversight of the
PBGC Office of Inspector General (OIG). We are pleased to have received our 14th
consecutive unqualified audit opinion on our financial statements, and again to have received
an unqualified opinion regarding the effectiveness of PBGC’s internal controls.

The Report on Internal Control does identify four reportable conditions, and PBGC is
committed to addressing these issues in a timely manner. While we have made progress, we
understand that more remains to be done, and concur with the recommendations contained in
the report. We discuss the current status of corrective actions for each reportable condition
and provide estimated completion dates below:
      ●
          Systems Integration – In FY 2006, PBGC completed the first phase of a multiyear
          effort to consolidate and improve core financial management systems. On October 1,
          2006, the Consolidated Financial System (CFS) became the new system of record,
          consolidating three general ledger systems and our budget execution and
          administrative payment system into a single integrated environment. The passing of
          this major milestone positions PBGC closer to the resolution of this reportable
          condition. The second phase will focus on Business Process Re-engineering (BPR) to
          identify process improvements and increased integration between CFS and other
          systems that provide input to PBGC’s financial statements. PBGC plans to complete
          corrective action on this major effort by FY 2009.
      ●
          System Security – PBGC has added resources to develop an enterprise-wide system
          security program. Significant progress has been made in developing the Enterprise
          Information Security Policies and an Enterprise-wide Security Plan with
          implementation in the final stages. Through the internal controls program,
          deficiencies in critical processes across the agency are being corrected or mitigated.
          Risk assessment and system security plans for all significant financial management
          applications and general support systems have either been completed or initiated.
          PBGC is working on a comprehensive framework to formalize its progress under
          the Certification and Accreditation program to ensure compliance with NIST Special
       Publication 800-37, Guide for the Security Certification and Accreditation of Federal
       Information Systems. PBGC expects to complete Certification and Accreditation on
       two of its significant financial management applications (including the consolidated
       general ledger and budget system) as well as on its most critical general support
       systems in FY 2007, with Certification and Accreditation to follow on its two other
       primary significant financial systems when they are placed into operation in early FY
       2008.
   ●
       Premiums – PBGC’s Financial Operations Department has made considerable progress
       by implementing a new data capture process, improved image capture systems, a new e-
       filing system, and additional manual controls. For example, in the past, a significant
       number of premium payment transactions were suspended because the payments could
       not be initially associated with an existing customer account or failed other validation
       tests. As a result of an increased emphasis in this area and process improvements, the
       backlog of unresolved suspended transactions that existed at the end of FY 2004 has
       been eliminated, and the time required resolving such transactions has been greatly
       reduced. As of October 31, 2004, there were $66.5 million in suspended transactions,
       and two years later, these amounts have been reduced to $3.3 million (a 95% reduction).
       As of the same time periods, the dollar value associated with suspended transactions
       which were not resolved within a 60-day window has been reduced from $5.2 million to
       $41,000 (a 99% reduction). A new system, the Premium and Practitioner System (PPS),
       which will be the receivable module for the revolving set of books and will be fully
       integrated in CFS, has been designed to further improve timeliness and accuracy in
       premium operations. The new system will strengthen financial management and
       customer service capabilities, and will include a User’s Manual and updated procedures
       for estimating premiums. The contract to implement PPS was awarded at the end of FY
       2006, and implementation will occur in FY 2008.
   ●
       Continuity of Operations Plan – PBGC’s Facilities and Services Department, along
       with the Office of Information Technology, worked to address this reportable condition
       by conducting an internal review of the causes of a disruption in the availability of
       PBGC computer network at the end of FY 2005. A contingency planning policy
       statement that addresses a comprehensive set of objectives for the establishment of the
       organizational framework and responsibilities for comprehensive contingency planning
       was established and implemented. The policy’s objectives are comprised of ten
       components. PBGC has completed its efforts on the Continuity of Operations, Occupant
       Emergency, and Pandemic Influenza Plans. Work continues on the remaining
       components which include, but are not limited to, a Business Impact Analysis (BIA), an
       IT Risk Assessment, and various other recovery/communication plans. In addition,
       PBGC has a testing and exercise plan, which includes participation in government-wide
       Forward Challenge COOP exercises. Management plans to complete work on this effort
       in FY 2007.

We appreciate the professionalism that the OIG and Clifton Gunderson, LLP, demonstrated in
completing a complex audit in such a timely manner. Again, thank you for the opportunity to
respond.
